   Audit of the Data Center
Consolidation Initiative at NARA


OIG Draft Audit Report No. 12-09


         May 10, 2012
Table of Contents


Executive Summary ........................................................................................ 3

Background ..................................................................................................... 4

Objectives, Scope, Methodology .................................................................... 7

Audit Results................................................................................................... 9

Appendix A – Acronyms and Abbreviations ............................................... 23

Appendix B - Management’s Response to the Report ................................. 24

Appendix C - Report Distribution List ......................................................... 25
                                                                         OIG Audit Report No. 12-09


Executive Summary

The federal government’s demand for information technology (IT) is ever increasing. In
recent years, as federal agencies modernized their operations, put more of their services
online, and increased their security profiles, they have demanded more computing power
and data storage resources. This increasing demand has led to a dramatic rise in the
number of federal data centers and a corresponding increase in operational costs. The
Office of Management and Budget (OMB) launched the Federal Data Center
Consolidation Initiative (FDCCI) in February 2010, as part of an overall plan to improve
the Government's operational efficiency. As part of the initiative, agencies were to
inventory their data center assets, develop consolidation plans throughout FY 2010, and
integrate those plans into agency FY 2012 budget submissions.

The purpose of this audit was to assess NARA's progress in meeting its consolidation
objectives and consolidating its data centers.

Our audit found that NARA had not met preliminary targets identified in their data center
consolidation plan and had not reduced energy consumption at the data center. Although
NARA developed a Data Center Consolidation Plan in response to OMB’s Federal Data
Center Consolidation Initiative, NARA’s plan was incomplete and did not reflect key
aspects of the initiative. Specifically, the plan did not list all of the agency’s data centers,
did not include a complete list of hardware and software assets, and did not include an
adequate cost benefit analysis. Without a complete baseline state of the environment
NARA does not have the information needed to identify potential areas of cost savings.

We also found that NARA had not conducted the analysis needed to consolidate and
virtualize 1 servers resulting in overlap and duplication within NARA’s main data center.
In addition, the governance structure outlined in the plan did not provide the appropriate
oversight needed to measure and manage implementation of the FDCCI.

This report contains six recommendations which upon implementation will assist NARA
in implementing the initiative and potentially result in cost savings by reducing energy
usage.


1
 Virtualization is a technology that allows multiple, software-based virtual machines, with different
operating systems, to run in isolation, side by side, on the same physical machines.
                                             Page 3
                          National Archives and Records Administration
                                                                    OIG Audit Report No. 12-09


Background

The Federal Chief Information Officer (CIO) found that operating data centers is a
significant cost to the federal government, including hardware, software, real estate, and
cooling costs. In September 2009, OMB attempted to establish a comprehensive,
government-wide inventory of data center activity by federal agency to identify potential
improvements to efficiency, performance, and the environmental footprint of Federal data
center activities 2. The results of this government-wide inventory found that the number
of data centers grew from 432 in 1998 to over 2,000 by 2010. The Federal Chief
Information Officer reported that operating and maintaining such redundant infrastructure
investments was costly, inefficient, and unsustainable, and had a significant impact on
energy consumption.

In response to the government-wide inventory, the Administration launched the Federal
Data Center Consolidation Initiative (FDCCI) in February 2010, and issued guidance for
Federal CIO Council agencies 3. The guidance called for agencies to inventory their data
center assets, develop consolidation plans, and integrate those plans into agency FY 2012
budget submissions. The FDCCI was to reduce the number of data centers across the
government and assist agencies in applying best practices from the public and private
sector, with goals to:

    •   Promote the use of Green IT by reducing the overall energy and real estate
        footprint of government data centers;

    •   Reduce the cost of data center hardware, software, and operations;

    •   Increase the government’s overall IT security posture; and

    •   Shift IT investments to more efficient computing platforms and technologies.

OMB issued another memorandum 4 in October 2010 to provide an update on the FDCCI.
According to the memorandum, throughout the fall of 2010, CIO Council agencies were
to work with OMB to review, adjust, and finalize data center consolidation plans. OMB
planned to approve agency consolidation plans by December 31, 2010.

2
  OMB Budget Data Request No. 09-41 “Inventory of Federal Data Center Activity,” August 10, 2009
3
  OMB Memorandum “Federal Data Center Consolidation Initiative,” February 26, 2010,
http://www.cio.gov/documents/Federal-Data-Center-Consolidation-Initiative-02-26-2010.pdf
4
  OMB Memorandum “Update on the Federal Data Center Consolidation Initiative,” October 1, 2010,
http://www.cio.gov/documents/State-of-the-Federal-Datacenter-Consolidation-Initiative-Report.pdf
                                           Page 4
                        National Archives and Records Administration
                                                                   OIG Audit Report No. 12-09


NARA created a Data Center Consolidation Plan in response to the OMB initiative. In
the plan, NARA established goals to reduce data center energy usage, increase average
server utilization, pilot cloud computing services, use Federal data center facilities and
establish senior management oversight of the data center consolidation and strategic
sustainability activities. An official from NARA’s IT Infrastructure Support Division
was assigned as the Program Manager for the implementation. NARA received feedback
on their draft consolidation plan from a group of government peers at a GSA workshop
but did not receive feedback or approval from OMB regarding their consolidation plan.

GAO issued two reports related to the FDCCI. GAO 11-318SP "Opportunities to Reduce
Potential Duplication in Government Programs, Save Tax Dollars, and Enhance
Revenue," March 2011, reported on the status of FDCCI and noted that data center
consolidation makes sense economically and as a way to achieve more efficient IT
operations, but that challenges exist. Those challenges included ensuring the accuracy of
agency inventories and plans, providing upfront funding for the consolidation effort
before any cost savings accrue, integrating consolidation plans into agency budget
submissions (as required by OMB), establishing and implementing shared standards,
overcoming cultural resistance to such major organizational changes, and maintaining
current operations during the transition to consolidated operations. According to GAO,
mitigating these and other challenges will require commitment from the agencies and
continued oversight by OMB and Federal CIO.

GAO Report GAO 11-565 "Data Center Consolidation" July 2011, found that of the 24
participating agencies 5, only one of the agencies submitted a complete inventory and no
agency submitted complete plans. Further, OMB did not require agencies to document
the steps they took, if any, to verify the inventory data. The reason for these gaps,
according to several agency officials, was that they had difficulty completing their
inventories and plans within OMB’s timelines. According to GAO, until these inventories
and plans are complete, agencies may not be able to implement their consolidation
activities and realize expected cost savings. Moreover, without an understanding of the
validity of agencies’ consolidation data, OMB cannot be assured that agencies are
providing a sound baseline for estimating consolidation savings and measuring progress
against those goals




5
    NARA was not listed as one of the 24 participating agencies.
                                              Page 5
                           National Archives and Records Administration
                                                                         OIG Audit Report No. 12-09


In July 2011, OMB issued a memorandum 6 to provide an update on FDCCI activities and
publish a schedule of deliverables. The memorandum asked participating agencies to
complete all the missing elements in their respective consolidation plans and submit them
to the General Services Administration. In addition, the plan resubmission was to include
a signed verification letter from the CIO which attested to the completeness of agency
consolidation plans, actions agencies took to verify their asset inventories, and any
limitations of inventory and/or consolidation plan information. NARA officials did not
update their consolidation plan by September 2011. According to a NARA official,
NARA was not a participating agency and therefore, was not required to submit an
updated consolidation plan 7. Although NARA is not a participating agency in the
FDCCI, the CIO stated he agreed with the spirit of the initiative and was completely in
favor of using cloud technology, reducing energy usage, and consolidation.




6
  OMB Memorandum “The Federal Data Center Consolidation Initiative,” July 20, 2011,
http://www.cio.gov/documents/FDCCI-Update-Memo-07202011.pdf
7
  After issuance of the draft audit report, the CIO’s office provided an email from an OMB official which
confirmed NARA was not one of the 24 agencies participating in the IT reform initiative. In the email
from January 2011, the OMB official encouraged NARA’s existing efforts in their own data center
consolidation initiative covering cloud investment, energy usage reduction, and virtualization efforts.
                                            Page 6
                         National Archives and Records Administration
                                                               OIG Audit Report No. 12-09


Objectives, Scope, Methodology


The purpose of this audit was to assess NARA's progress in meeting its consolidation
objectives and consolidating its data centers.

This audit included a review of NARA’s implementation of OMB’s Federal Data Center
Consolidation Initiative. We reviewed OMB memorandums related to FDCCI as well as
guidance issued by the CIO Council to identify the requirements for agencies to follow.
To determine whether NARA developed a consolidation plan consistent with the
initiative’s consolidation effort we obtained the draft and final consolidation plans and
compared the final plan to the CIO Council guidance. We also interviewed NARA and
contractor officials who participated in writing the plan to obtain the definition used for a
data center and gather information as to how the plan was created. To determine whether
NARA developed a complete asset inventory to identify and document the current data
center environment we reviewed the final consolidation plan and compared it to the CIO
Council guidance. We also obtained an asset inventory of servers as of July 22, 2011.

To determine the progress NARA had made on implementing their consolidation targets
we reviewed each of the five goals identified in the consolidation plan and met with
NARA officials to review actions taken during the year toward each goal. To determine
whether the governance process was effective in monitoring the implementation of the
data center consolidation project we interviewed the Program Manager and reviewed the
meeting minutes from the three groups identified in the consolidation plan: the
Information Technology Executive Committee, the Architecture Review Board, and the
Technical Review Group.

We also met with NARA’s Energy Manager and requested current electricity usage
information for the main data center and the new data center created for the network
storage equipment to determine whether NARA had met their goal of reduced energy
usage. NARA did not have sub-meters installed to measure the electricity usage for the
data centers therefore, the Energy Manager provided an average using a handheld meter
at the entry point to the data center. NARA officials expected to have a sub-meter
installed for the Archives II data center by December 2011 so that specific data on the
amount of electricity used by the data center will be available in the future. As of
January 3, 2012, a contract had been awarded to install the electrical meter but the
                                           Page 7
                       National Archives and Records Administration
                                                              OIG Audit Report No. 12-09


contractor was still working with their sub-contractors to determine the installation
schedule.

Our audit work was performed at Archives II in College Park, MD between May 2011
and February 2012. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.




                                         Page 8
                      National Archives and Records Administration
                                                                    OIG Audit Report No. 12-09


Audit Results

1. Incomplete Data Center Consolidation Plan
Although NARA developed a data center consolidation plan in response to OMB’s
Federal Data Center Consolidation Initiative, NARA’s plan did not reflect key aspects of
the initiative. Specifically, the plan did not list all of the agency’s data centers, did not
include a complete list of hardware and software assets, and did not include a cost benefit
analysis. This occurred because NARA officials used the definition of a data center in
OMB Bulletin 96-02 8 for identifying data centers instead of using a measurement
consistent with more recent OMB definitions. Further, NARA officials were not able to
conduct a cost benefit analysis in the time period allowed. OMB’s purpose of the agency
data center consolidation plans was to assist agencies in identifying and proposing
potential areas where optimization or asset consolidation could be used to generate cost
savings. However, without a complete consolidation plan, NARA lacks the information
needed to identify potential areas of cost savings and to determine whether other
efficiencies can be achieved.

OMB’s goal for the data center consolidation initiative was to identify potential
improvements to efficiency, performance, and the environmental footprint of Federal data
center activities. Within the first phase of the data center consolidation initiative,
agencies were to perform metrics gathering in order to derive a baseline state of their
current data center environment. Agencies were to identify and document an inventory
of their data center assets across four areas of focus: 1) Software Assets and Utilization;
2) Hardware Assets and Utilization; 3) IT Facilities and Energy Usage; and 4)
Geographic Location and Real Estate.

NARA Data Centers

Despite OMB and CIO Council guidance, NARA’s data center consolidation plan did not
identify and document the baseline state of the data center environment. Instead, NARA
officials identified only one data center for the entire agency. According to NARA
officials, the “Archives II” data center referred to in the plan actually included at least


8
  OMB Bulletin 96-02, “Consolidation of Agency Data Centers,” October 4, 1995 was OMB’s first
initiative to consolidate federal data centers more than 15 years ago.
                                           Page 9
                        National Archives and Records Administration
                                                                        OIG Audit Report No. 12-09


three different computer rooms within the Archives II building 9 which the officials chose
not to report as separate data centers in their consolidation plan. In addition, NARA did
not report the computer rooms used to house servers and network equipment at the 44
other NARA locations such as Archives I, the Presidential Libraries, Regional Archives,
Records Centers, and the leased data center located in Rocket Center, West Virginia.

Budget Data Request 09-41 10 defined a data center as a repository (room or building) for
the storage, management, and dissemination of data and information. This repository
houses computer systems and associated components and generally includes redundant or
backup power supplies, environmental controls, and special security devices housed in
leased, owned, collocated, or stand-alone facilities. The CIO Council further clarified in
their FDCCI guidance that all data centers should be reported regardless of ownership or
management. In addition, servers under a desk or field offices that have two or three
servers each should be included as separate “data centers” with the appropriate data
center tier value reported in the final inventory baseline template.

NARA Officials chose to limit the definition of a data center they used in creating their
consolidation plan. For example, the Executive for Business Support Services 11
explained that the definition NARA used was from the OMB Budget Data Request 09-41
and OMB Bulletin 96-02. The definition in OMB Bulletin 96-02 included a caveat that
there had to be five Full Time Equivalents (FTE) assigned to the data center in order for
the room to be considered a data center. According to the Executive for Business
Support Services, the term FTE includes only government employees and does not
include contractor support personnel therefore, the only data center was at Archives II.

According to the CTO, the main factor in determining the number of data centers at
NARA was the number of FTE’s involved in the management of the room. Since most
of NARA’s data centers are managed by contractors instead of Government FTE’s these
computer rooms were not included in NARA’s data center consolidation plan. The Chief
Technology Officer (CTO) agreed with the definition NARA used in determining the
number of data centers to report, stating that one reason computer rooms at the field
offices were not reported was because routers and switches would always be needed
9
  The Archives II building, located in College Park, MD, is approximately 1.7 million gross square feet.
According to NARA’s plan, the data center “Archives II” consisted of 6,302 square feet and contained 98
racks.
10
   BDR 09-41 was the precursor data request to the OMB memorandum establishing the FDCCI.
11
   The Executive for Business Support Services was the Deputy CIO and Acting CIO at the time of plan
creation.
                                            Page 10
                         National Archives and Records Administration
                                                             OIG Audit Report No. 12-09


therefore, there would not be a way to consolidate or reduce the number of computer
rooms. The CTO stated that while the number of servers at the field sites could be
reduced, it would be impossible to reduce the number of computer rooms.

As part of the FDCCI, a peer review of each agency’s draft consolidation plan was
conducted before the final consolidation plan was due. NARA received feedback that
should have been used to revise the consolidation plan. For example, the feedback stated
that the number of data centers needed to be clarified and that more quantitative numeric
metrics needed to be attached to the goals. In addition, the feedback stated that clearer
targets were needed that would address the entire data center environment for the agency,
not limited to just one data center. NARA officials chose not to incorporate these
comments received from the peer review into the final consolidation plan.

Inventory of Hardware and Software

The consolidation plan also did not include a complete list of hardware and software
assets. According to NARA officials, the number of servers was derived from the servers
located in the Archives II main data center, the new data center established for NARA’s
storage area network, and the small data center maintained by the Archival Operations
staff. NARA’s final consolidation plan dated August 30, 2010 reported a total of 423
servers. We requested a current listing of deployed servers and found that as of
July 2011, there were 660 servers deployed across NARA. Of the 660 servers, 450 were
located at the Archives II building. NARA’s consolidation plan should include all
servers deployed at NARA in order to assess consolidation and virtualization options
across NARA’s environment.

The purpose of the software assets template in the consolidation plan was to document all
major and non-major investments (i.e. systems) hosted in a data center, identify their key
elements, and to evaluate the feasibility of their consolidation via: decommission,
consolidation, virtualization or cloud computing. NARA reported on the CIO IT
dashboard that it has 29 total investments, 8 of which are major investments. However,
NARA’s consolidation plan evaluated only 15 of those 29 investments at NARA. For
example, the plan identified one system as a possible candidate for consolidation, two
systems as possible candidates for consolidation and virtualization, and identified four
systems to be decommissioned. The plan does not include other investments at NARA
including two major investments: EDOCS and ERA. The plan also does not include
details as to how or when servers would be decommissioned or consolidated. This
                                           Page 11
                      National Archives and Records Administration
                                                              OIG Audit Report No. 12-09


information is needed so that NARA officials can begin planning and determine what
actions need to be taken.

Cost Benefit Analysis

NARA’s consolidation plan did not contain a cost benefit analysis. Specifically, for each
fiscal year included as part of the Final Consolidation plan, agencies were to state
aggregate year-by-year investment and cost savings calculations through FY15. These
figures were to be realistic estimates of funding needed or savings to be realized from
closings of facilities, the associated reduction in energy use, real property savings,
personnel reductions, and IT infrastructure (network) cost savings. In NARA's
consolidation plan, NARA officials stated that a cost benefit analysis for each of the four
goals in the plan could not be conducted in the time period allowed therefore, NARA
obtained a savings estimate through an alternate means. Specifically, NARA used
VMware's online virtualization savings calculator and determined that by reducing 124
servers, NARA would have a savings of almost $600,000 in capital expenses and over
$151,000 in power savings for a total savings of over $700,000.

According to NARA’s FDCCI Program Manager, while the plan identifies targets for
reducing the number of servers every year for the next five years, he did not anticipate
reducing any servers. The Program Manager stated that the number of servers would
most likely increase over the next five years as his office responds to needs identified by
the agency. According to the Program Manager, the CIO or the CTO would need to
make strategic decisions as to the virtualization or consolidation of servers. Conducting a
cost benefit analysis could be used to help the CIO and CTO in making strategic
decisions associated with FDCCI.

The FDCCI presents an opportunity for NARA to improve the efficiency of its data
centers however, without a complete baseline state of the environment and an inventory
of hardware and software assets, NARA does not have the information needed to identify
potential areas of cost savings. In addition, without a complete consolidation plan,
NARA may not realize anticipated cost savings, improved infrastructure utilization, and
energy efficiency.

Information Services officials stated they would not be updating the NARA Data Center
Consolidation Plan because NARA is not a participating agency in the FDCCI and does
not have to report their progress to OMB. Instead, the Information Services officials
                                        Page 12
                     National Archives and Records Administration
                                                             OIG Audit Report No. 12-09


stated they maintain a Master System List which includes the estimated number of
servers and physical location for each application. In addition, the Office of Information
Services stated they do not plan to invest in a cost benefit analysis when funding is not
available. Instead, the Office of Information Services officials stated they will use the
Enterprise Architecture to outline the year-by-year evolution of NARA’s applications and
supporting IT infrastructure.

While the Master System List includes an estimate of the current inventory of servers, it
does not reflect NARA’s goals to reduce energy usage, pilot cloud computing, and
increase server utilization through consolidation and virtualization. Specifically, the
Master System List does not contain the total number of servers by type, the average
server utilization, or how many servers are virtualized. The Master System List also does
not include energy usage calculations or savings metrics. This type of information would
assist NARA in monitoring their progress toward their data center consolidation goals.

Recommendation 1

The Executive for Information Services/CIO should update the Master System List
and/or the Enterprise Architecture to incorporate:

   a) NARA’s data center consolidation goals including the approach, rationale, and a
      preliminary timeline of activities;

   b) Energy usage calculations;

   c) Realistic estimates of funding needed or savings to be realized from implementing
      NARA’s data center consolidation goals; and

   d) Annual savings metrics such as rack count reduction, server count reduction,
      energy usage reduction, and energy cost reduction to monitor progress.

Management Comments

The Archivist concurred with the need for action and the intended outcome, but did not
agree with the proposed implementation process embedded in the recommendation.
Specifically, the Archivist stated NARA is not subject to the FDCCI policy and therefore,
was not expected to respond to the policy’s template-based reporting. Instead of using
the template-based approach, the Archivist stated modifications were made to both the
Information Technology Master System List and Enterprise Architecture documentation
                                        Page 13
                     National Archives and Records Administration
                                                             OIG Audit Report No. 12-09


to capture pertinent system data and this documentation will continue to be updated to
support NARA’s needs.

Audit Response

We support the Archivist’s decision to use the IT Master System List and Enterprise
Architecture documentation instead of updating NARA’s Data Center Consolidation
Plan. However, as stated in the report, these mechanisms as currently written do not
adequately capture NARA’s goals towards reducing energy usage, piloting cloud
computing, and increasing server utilization through consolidation and virtualization.
The mechanisms also do not currently contain NARA’s progress in working toward those
goals. The audit recommendation does not limit the CIO to using a specific template in
capturing this information. Instead, the intent of the recommendation is to ensure the
CIO’s goals are incorporated into strategic planning documents and periodically
measured to monitor NARA’s progress toward those goals.

Recommendation 2
The Executive for Information Services/CIO should update transition plans within the
Enterprise Architecture annually to outline the year-by-year evolution of NARA’s
applications and supporting IT infrastructure in the context of OMB’s guidance on cloud-
first deployment and consolidation.

Management Comments

The Archivist concurred with the recommendation.




                                        Page 14
                     National Archives and Records Administration
                                                                        OIG Audit Report No. 12-09


2. Overlap and Duplication within NARA’s Data Center
Overlap and duplication of hardware existed within NARA’s main data center. Besides
reducing the number of data centers across the government, the main focus of FDCCI
was the optimization of server, rack space, and floor space utilization in terms of data
processing. However, NARA officials have not conducted the analysis needed to
determine which servers can be consolidated or virtualized. As a result, NARA is
missing an opportunity to reduce the cost of hardware, the overall energy usage, and the
real estate footprint of NARA’s data centers.

We found that an opportunity exists to potentially reduce the square footage needed for
the data centers by increasing the rack space utilization and virtualization of servers.
This would reduce overlap and duplication of hardware within NARA’s main data center.
For example, NARA’s consolidation plan reported an estimated rack space utilization of
61%. We observed that racks within the data center were not always filled to capacity
and BT officials reported that there are no virtualized servers on NARANet 12. According
to BT officials, the racks and servers were purchased by separate offices therefore, it
would be up to each office whether they would be willing to share rack space or a server
with another NARA office. The BT officials also stated that since there are several
support contractors that have access to the room, separate locked racks ensure contractors
only have access to the systems they manage.

According to the CIO Council, OMB's end goal is optimizing the overall IT infrastructure
and operations within the federal government; however, the immediate focus of FDCCI
was limited to developing agency Data Center Consolidation Plans as part of an agency's
overall IT strategy: “Agencies should be looking at all of their systems and analyzing
where its data is residing today and where the agency wants it to be in the future within
an optimized, secure, and reliable IT infrastructure.” Further, OMB reported that the
average utilization rate for servers ranges from 5% to 15% however, many agencies are
paying the energy costs to run data centers at 100% capacity. Therefore, agencies could
reduce the cost of hardware and save on energy usage by consolidating servers. As
shown in Table 1 below, the results NARA reported in their Consolidation Plan were
comparable to other agencies within the Federal government but do not meet the target
results established for the FDCCI.


12
  Information Services officials reported that some applications have been virtualized however, these
applications do not reside on NARANet.
                                            Page 15
                         National Archives and Records Administration
                                                                                     OIG Audit Report No. 12-09

              Table 1. Comparison of NARA’s Environment to Typical Federal Agency Results
                                       and Target OMB Results

  Utilization Metrics              Typical Results                 NARA Results                    Target Results

Average                                 0 - 10%                            0%                          30 - 40%
Virtualization (%)
Average Virtual OS                        5 - 10                            9                           15 - 20
per Host (#)
Average Server                          7 - 15%                        10 - 40%                60 - 70% (application
Utilization (%)                                                                                       dependent)
Average Rack Space                     50 - 60%                           61%                          80 - 90%
Utilization
Source: Typical and Target results were obtained from the FDCCI Workshop held June 4, 2010, and the NARA results were obtained
from NARA’s Consolidation Plan.


In September 2009, NARA reported that the average server central processing unit (CPU)
utilization was 13%. NARA’s consolidation plan reported that average server utilization
was between 10% and 40%. Creating virtual servers would allow offices to share servers
and keep data separate to meet security needs. For example, one agency official noted
that he would have to purchase a new server to put in the data center to run a small
application even though space was most likely available on an existing server.

NARA’s Consolidation Plan included the consolidation and virtualization for two major
application domains and the General Support System infrastructure used to provide
email, file and print, and web hosting services. According to the preliminary timeline in
the plan, NARA officials were to develop the systems engineering analysis during the
first half of FY 2011. However, the CTO stated that virtualization would require
extensive analysis to determine which servers could be effectively virtualized and this
analysis had not been completed yet due to other priorities. According to the CTO, he
expects that this analysis will be done eventually as a way to use resources more
efficiently however, a Business Support Services official stated that due to staffing and
budget constraints the work on virtualization has been put on hold.

NARA’s consolidation plan also included a proposal to transition NARA’s data center to
below grade. According to the NARA Facilities Director, the Storage Network was too
heavy to put in the fourth floor data center therefore, a new room in the basement was
built to house the equipment. This included adding a new A/C unit to the room. The
Facilities Director stated that a plan has been discussed to consolidate the 4th floor data
                                                 Page 16
                              National Archives and Records Administration
                                                             OIG Audit Report No. 12-09


center into the basement data center. According to the Facilities Director, moving the
data center from the fourth floor to the basement would reduce data center energy usage
because less energy would be needed to cool the room. Before NARA continues with
this plan, NARA needs to conduct the analysis to virtualize and consolidate servers to
determine the appropriate floor space needed.

Improving IT asset utilization is the key driver for reducing energy consumption per unit
of performance. This is achieved primarily by increasing the number of virtual servers
per hosts (virtualization); decommissioning underutilized physical servers; relocating
underutilized racks; and shutting down underutilized facilities. Benefits from
virtualization include reduced energy consumption which leads to significant energy cost
savings, reduced facilities maintenance and operations costs, reduced server maintenance
and operations costs, and improved automation for server management and provisioning.
NARA officials should conduct the analysis needed to determine whether NARA can
take advantage of the benefits in virtualization and determine whether the size of the
current data center can be reduced by changing the organization of rack space.

Recommendation 3

The Executive for Information Services/CIO should conduct the
consolidation/virtualization analysis to investigate the impact of consolidating or
virtualizing two major application domains (NISP and ERA) and the General Support
System (NARANet) as planned or evaluate other alternatives to increase the average
server utilization rate.

Management Comments

The Archivist agreed on the need to perform a detailed consolidation/virtualization
analysis and stated he plans to assess systems on a case-by-case basis as these systems
are considered for replacement or upgrade. Specifically, the Archivist stated that he does
not agree that a comprehensive approach as recommended is a good use of resources.
Instead, the Archivist stated that a phased approach that is coordinated with other planned
systems analysis meets the intent of the recommendation and allows NARA to best use
limited resources to optimize systems.




                                        Page 17
                     National Archives and Records Administration
                                                              OIG Audit Report No. 12-09


Audit Response

Consolidation and virtualization are two strategies to address the issues of server
underutilization and data center capacity. The first steps in implementing these strategies
usually involves identifying the performance characteristics of servers currently in the
data center and collecting information about the hardware, operating system, and
applications running on the servers. Performing a detailed analysis on a case-by-case
basis as systems are considered for replacement or upgrade would delay implementation
of consolidation or virtualization even further. In order to gather adequate performance
characteristics about each server, NARA will need to capture CPU utilization data over a
period of time. Therefore, it would not be advantageous for NARA to wait months or
even years to begin capturing this data.

Our recommendation was based on NARA’s original consolidation plan which identified
two major applications (NISP and ERA) and the general support system (NARANet) as
candidates for a virtualization analysis to be completed. According to the Master System
List, NARANet has an estimated 235 servers and ERA is estimated to have over 150
servers. Therefore, conducting the consolidation and virtualization analysis for these
systems would focus resources towards two of NARA’s largest systems. The Archivist
should reconsider his position or include a timeframe as to when a consolidation and
virtualization analysis for NISP, ERA, and NARANet would be completed.

Recommendation 4

The Executive for Business Support Services should evaluate the current organization of
rack space and determine whether servers can be consolidated into fewer racks when
considering space optimization, power consumption, operations management, and
component failure/recovery perspectives.

Management Comments

The Archivist concurred with the recommendation.




                                        Page 18
                     National Archives and Records Administration
                                                                       OIG Audit Report No. 12-09


3. Improvement Needed within Governance Structure
NARA had not met preliminary targets identified in their data center consolidation plan.
OMB recommended agencies develop a governance structure to measure and manage
performance and risk of the FDCCI implementation within the agency. The Director of
IT Infrastructure Support was named program manager for this initiative; however, an
individual was not assigned responsibility for tracking implementation of the Data Center
Consolidation Plan. As a result of not meeting its preliminary targets, NARA is missing
out on the benefits provided by this initiative such as cost savings.

NARA’s Data Center Consolidation Plan included five goals for data center
consolidation, the approach NARA would use to reach each goal, and a preliminary
timeline for some of the goals. We found that NARA has made minimal progress
towards their goals and has not met any of the timelines outlined in the plan. For
example, the first goal identified in NARA’s consolidation plan was to reduce data center
energy usage by 7% by 2012. According to the consolidation plan, the data center used
approximately 1,752,000 kWH/year. Therefore, in order to reduce energy usage by 7%,
the number of kWH/year would need to be reduced by 122,640. Current estimates
provided by Facilities found that NARA’s data center energy usage is approximately
1,720,726 kWH/year, which is reduction of only 31,274 kWH/year. While this number is
lower than the amount reported in the consolidation plan, NARA’s Energy Manager
noted that NARA officials rounded up the amount of kilowatts used in their calculation 13.

Although NARA did not meet its target of reducing data center energy usage by 7%,
NARA officials did make some progress toward this goal. NARA’s approach to reducing
data center energy usage included increasing the use of blade technology, requiring new
acquisitions to include energy-star qualified products, enterprise wide storage utilizing
“spin-down” technology to power-down unused drives, installation of advanced power
metering technology, and transitioning NARA’s data center to below grade. According
to NARA officials, blade servers were acquired for the ARC system and the storage area
network however, additional planned actions were limited by funding constraints this
fiscal year. NARA officials did not request any additional funding to complete data
center consolidation activities.


13
  In 2009, NARA’s Energy Manager found that NARA’s main data center used approximately 191 kWs
however, in developing the consolidation plan, NARA officials calculated the amount of energy used for
the year based on 200 kWs.
                                            Page 19
                         National Archives and Records Administration
                                                               OIG Audit Report No. 12-09


The Data Center Consolidation Plan also identified that NARA would reduce its number
of Windows servers by approximately 20 each year starting in FY 2012, with a total of 80
less servers in the environment by the fourth quarter of FY 2015. The plan does not
include any details as to which Windows servers will be removed or whether they will be
consolidated. In addition, the Director of IT Infrastructure Support, who is also the
FDCCI Program Manager, did not believe NARA would be able to reduce the number of
servers needed since data needs are constantly increasing.

Another goal identified in the plan was consolidation and virtualization. In the first half
of FY 2011, NARA planned to investigate the engineering alternatives for consolidating
or virtualizing two major application domains and the General Support Systems
infrastructure. However, this analysis has not been conducted. According to the CTO,
there were several higher priority projects that delayed this analysis but he expects this
analysis will be done eventually. In January 2012, a Business Support Services official
stated that due to staffing and budget constraints the work on virtualization has been put
on hold.

According to OMB, large IT projects often fail to meet goals because of distributed
accountability for success. Large, complex, and critical infrastructure programs, such as
data center consolidation, require a single person to lead the coordinated effort. OMB
requested each agency to designate a senior, dedicated data center consolidation program
manager with project management experience and technical competence in IT
infrastructure. The data center program manager at each agency was responsible for
developing a plan with interim, verifiable milestones to reach the agency’s data center
reduction target and monitoring progress toward those goals.

NARA planned to use existing IT governance frameworks for tracking the data center
consolidation activities to ensure each of the IT initiatives met the strategic objectives of
the plan. The IT Executive Committee (ITEC) and the Architecture Review Board
(ARB) were to provide executive oversight to include investments and tracking of the
data center consolidation initiative. The ITEC and ARB along with two subgroups of the
ARB: the Technical Review Board and the Business Architecture Working Group were
to ensure that the goals associated with the consolidation initiative were carefully
considered as part of the planning of any new NARA IT initiatives. This governance
structure does not identify which office or individual within NARA was charged with
taking the lead to ensure the goals were met.

                                         Page 20
                      National Archives and Records Administration
                                                            OIG Audit Report No. 12-09


According to NARA’s Data Center Consolidation Plan, data center consolidation risks
would be managed within its governance processes. For example, the plan states that a
program manager would be appointed to oversee the integration and coordination of
individual FDCCI projects. According to the plan, the FDCCI Program Manager, with
the help of the Chief Technology Officer, was to determine the program level risks and
manage and report on their mitigation plans to the TRG. In addition, twice a year, the
FDCCI program manager was to report on FDCCI-level risk mitigation issues to the TRG
and ARB.

The FDCCI Program Manager stated that his role in the initiative was to provide data that
could be used to make decisions. We reviewed the meeting notes from the TRG, ARB,
and ITEC meetings held from February 2010, (when OMB’s FDCCI was announced) to
June 2011. We found only two instances where data center consolidation topics were
discussed. Specifically, on May 3, 2010, the TRG discussed data center rationalization
and on April 25, 2011, the TRG minutes referenced a discussion on migration to the
cloud. According to the Program Manager, he has not briefed the ITEC; however, he did
discuss the initiative with the Chief Technology Officer, the CIO, and the Deputy CIO.

GAO Report 11-565 identified challenges faced by Federal agencies during data center
consolidation efforts and provided lessons learned by State governments who already
implemented similar initiatives. Lessons learned included obtaining executive support
and empowerment to champion the consolidation and to communicate early and often
with key agency officials. Another lesson learned was to establish a governance model
with a single point of control and vision. NARA’s current governance model does not
take advantage of these lessons learned which places NARA at an increased risk of
failing to meet the goals outlined in their consolidation plan.

NARA does not have plans to update their data center consolidation plan and instead will
use the Enterprise Architecture to implement and monitor their FDCCI goals. The CIO
stated he would take responsibility for ensuring the agency is considering OMB’s cloud
first policy and guidance on virtualization and consolidation.

Recommendation 5

The Executive for Information Services/CIO should review and approve the annual
Enterprise Architecture update to ensure that the agency is considering OMB’s cloud first
policy and guidance on virtualization and consolidation.
                                        Page 21
                     National Archives and Records Administration
                                                          OIG Audit Report No. 12-09


Management Comments

The Archivist concurred with the recommendation.

Recommendation 6

The Executive for Information Services/CIO should strengthen governance and oversight
activities through periodic monitoring.

Management Comments

The Archivist concurred with the recommendation.




                                       Page 22
                    National Archives and Records Administration
                                                    OIG Audit Report No. 12-09


Appendix A – Acronyms and Abbreviations

CIO      Chief Information Officer
CTO      Chief Technology Officer
FDCCI    Federal Data Center Consolidation Initiative
FTE      Full Time Equivalent
GAO      Government Accountability Office
kWH/yr   Kilowatt Hours per year
NARA     National Archives and Records Administration
OMB      Office of Management and Budget




                                  Page 23
               National Archives and Records Administration
                                                 OIG Audit Report No. 12-09


Appendix B - Management’s Response to the Report




                               Page 24
            National Archives and Records Administration
                                                         OIG Audit Report No. 12-09


Appendix C - Report Distribution List

Archivist of the United States
Deputy Archivist of the United States
Chief Operating Officer
Executive for Information Services
Executive for Business Support Services




                                       Page 25
                    National Archives and Records Administration
